No.
INTHE

$->upreme QCourt of tbe Wniteb $->tates
LEVEL THE PLAYING FIELD, ET AL.,

Petitioners,

v.
FEDERAL ELECTION COMMISSION,

Respondent.
AFFIDAVIT OF SERVICE
I HEREBY CERTIFY that all parties required to be served, have been served, on this 9th
day of November, 2020, in accordance with U.S. Supreme Court Rule 29.3, three (3)
copies of the foregoing PETITION FOR WRIT OF CERTIORARI by placing said
copies in the U.S. mail, first class postage prepaid, addressed as listed below.
Jeffrey B. Wall
Acting Solicitor General
of the United States
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

B ON S. ADAMS, LEGAL & COMMERCIAL PRINTERS
1615 L Street, NW, Suite 100
Washington, DC 20036
(202) 34 7-8203

District of Columbia
Signed and sworn to (or affirmed) before me on 9th day of November, 2020.

EN PIERANGELI
NOTARY PUBLIC, DISTRICT OF C
My Commission Expires June 14, 2025.

